           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



     PROCESS FOR AWARDING
    SOLE SOURCE ACQUISITIONS


   February 2008   A-15-07-17061




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                      SOCIAL SECURITY
MEMORANDUM

Date:      February 14, 2008                                           Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Process for Awarding Sole Source Acquisitions (A-15-07-17061)


           OBJECTIVE
           Our objective was to assess the Social Security Administration’s (SSA) non-competitive
           award process. Specifically, we assessed the Agency’s process used to justify Sole
           Source Acquisitions by determining whether sole source awards were supported by
           adequate documentation in accordance with the Federal Acquisition Regulation (FAR).

           BACKGROUND

           The Office of Acquisition and Grants (OAG) under the Office of the Deputy
           Commissioner for Budget, Finance and Management is the procurement office of SSA
           Headquarters in Baltimore, Maryland. OAG is responsible for the SSA-wide acquisition
           and grants programs in support of the Agency’s mission and strategic goals. This
           includes: planning, soliciting, awarding, and administering contracts, purchase orders,
           task orders, and delivery orders. Also, OAG directs the business management aspects
           of these activities, and develops and implements applicable policies, procedures and
           directives.

           In accomplishing its mission, OAG is required to comply with Title VII of the Deficit
           Reduction Act of 1984, Public Law 98-369, also known as the Competition in
           Contracting Act of 1984, 1 as implemented in the Code of Federal Regulation (C.F.R.)
           Part 6, which sets a standard of competition for Federal contracts. This law was
           enacted for the purpose of increasing the number of Government procurements




           1
               41 U.S.C. § 253.
Page 2 - The Commissioner


conducted under the principle of full and open competition, 2 as opposed to contracts
that were issued under noncompetitive arrangements such as “sole source” 3 awards.

Per OAG, SSA made 18,660 acquisitions totaling approximately $2.1 billion 4 from
Fiscal Year (FY) 2003 through 2005. During the same period, 1,290 sole source
acquisitions, 5 totaling approximately $75 million, were awarded. A breakdown by year
follows:

                     Total                  Total             Sole Source             Sole Source
      Year        Acquisitions           Dollar Value         Acquisitions            Dollar Value
    FY 2003               4,521           $541,389,261                 504               $27,685,604
    FY 2004               6,743            708,747,820                 463                31,242,240
    FY 2005               7,396            848,370,653                 323                16,469,381
        Total           18,660          $2,098,507,734               1,290               $75,397,225

In FY 2003, the dollar value of sole source acquisitions represented five percent of the
total dollar value of all acquisitions. By FY 2005, the dollar value of sole source
acquisitions decreased to two percent of the total dollar value of all acquisitions.

Additionally, we noted the number of sole source acquisitions provided by SSA
overstate the actual number of sole source acquisitions awarded. Our sample review of


2
 48 C.F.R. § 2.101 defines “Full and open competition.” When this term is used with respect to a contract
action, it means that all responsible sources are permitted to compete.
3
 48 C.F.R. § 2.101 defines “Sole source acquisition” as “…a contract for the purchase of supplies or
services that is entered into or proposed to be entered into by an agency after soliciting and negotiating
with only one source.”

Additionally, certain types of contract actions were not included in the review or in the figures for “sole
source acquisitions” or “sole source dollar value;” including but not limited to orders against General
Services Administration (GSA) schedule contracts; orders to "required” sources of supply (such as Javits-
Wagner-O'Day [JWOD]); orders against Government Wide Acquisition Contracts (GWACs); open market
orders and orders against SSA awarded indefinite delivery indefinite quantity (IDIQ) contracts, if the
original awards were not competed, etc. GSA schedule orders and GWAC orders were not reviewed
because the initial award of the GSA schedules and the GWACs were themselves competed. According
to 48 C.F.R. § 8.002, Priorities for use of Government supply sources, the Federal Government must
satisfy requirements for supplies or services in accordance with the priority lists provided at 48 C.F.R.
§ 8.002, lists which include eight sources for supplies and four sources for services. The last source on
either list includes “commercial sources;” sources that are higher on the lists include the procurement list
maintained by the Committee for Purchase from People Who are Blind or Severely Disabled (this source
is commonly known as “JWOD”); Federal Prison Industries or UNICOR (higher priority for supplies only);
and optional use Federal Supply Schedules (GSA Schedules).
4
 These figures provided by OAG represent all SSA acquisitions over $2,500, both those made by OAG
and those made by regional contracting staff. We did not audit these figures.
5
  There were 13 awards in the population of 1,290 awards that had total dollars obligated of zero. We
removed all items which had zero dollars obligated. Therefore, our population consisted of 1,277 awards
(1290 less 13 awards). See Appendix B.
Page 3 - The Commissioner


75 items included items that were not actual sole source acquisitions. (See details on
pages 3 and 4, and in Appendix B regarding the sample.) Therefore, with fewer sole
source acquisitions, opportunities for fraud in this area are reduced.

SSA indicated it uses full and open competition, whenever practicable. However, in
certain situations OAG cannot provide for full and open competition. There are seven
                                                                                   6
statutory exceptions which allow the use of other than full and open competition. The
exceptions, in summary, are: (1) only one responsible source and no other type of
property or services will satisfy Agency requirements; (2) unusual and compelling
urgency; (3) national emergency or industrial mobilization, essential engineering,
research or development capability, or expert services for litigation or dispute;
(4) international agreement; (5) authorized or required by statute; (6) national security;
and (7) public interest.

We requested from OAG a data extract of all noncompetitive awards made during
FY 2003 through FY 2005. OAG provided a data extract that combined data from
Federal Procurement Data System - Next Generation (FPDS-NG) and from SSA's
                                            7
Streamlined Acquisition System (SSASy). FPDS-NG is the Governmentwide
computer-based data system for collecting, developing, and disseminating procurement
data. SSASy is the internal SSA database used for acquisition planning, requisitions,
awards, and acquisition management information reporting. SSA uses SSASy to
prepare, submit and process paperless purchase requests (PR) electronically. OAG
and regional contracting staff input basic information into SSASy regarding acquisitions
over the Micro-Purchase Threshold (MPT), which was $2,500 during the periods
covered by our audit.

We reviewed sole source awards made in FYs 2003, 2004, and 2005. Our population
consisted of 1,277 awards, 8 totaling over $75 million. Our sample consisted of
75 awards. (See Appendix B for our sampling methodology.) For each award we
selected, we reviewed the documents supporting the sole source acquisition. The
documents supporting the sole source acquisitions were included in SSASy for awards
that originated at Headquarters. However, regional contracting staff was not required to
keep supporting documentation in SSASy. Our sample consisted of the following:




6
    41 U.S.C. §§ 253(c)(1)-(7).
7
 SSASy is a paperless, electronic tool used to create, route and process purchase requests (PR). OAG
conducted a pilot version of SSASy in 2001. Based on the success of the pilot, SSASy was rolled out to
various SSA headquarters components in 2002.
8
    See footnote 5 on p. 2.
Page 4 - The Commissioner


                                                     Awards        Awards         Total
                 Basis for Award                      Over          Under        Awards          Amount
                                                      MPT            MPT
      Statutory Exceptions Permitting
      Sole Source Acquisition
      - Exception 1 - only one
           responsible source and no
           other supplies or services will
           satisfy Agency requirements                       45            12           57     $20,499,596
      - Exception 2 - unusual and
            compelling urgency                                2             0            2         991,031
      Subtotal Statutory Exceptions                          47           12*           59     $21,490,627

      Other Explanation (Not Sole
      Source Award)
      - Awards Not Requiring JOFOC                             1            6            7          $10,107
      - Ratification 9                                         2            4            6           33,877
      - Competitively Awarded                                  2            0            2            9,100
      - Processed Incorrectly                                  1            0            1            3,162
      Subtotal Non-Statutory Exceptions                        6           10           16          $56,246

      Total                                                  53            22           75     $21,546,873
      *Although awards under the MPT do not require a justification for other than full and open competition
      (JOFOC), SSA prepared a JOFOC for the base award associated with 12 awards (with Herman Miller,
      Inc.) meeting Exception 1 that were under the MPT. Therefore, we reviewed the JOFOC.


RESULTS OF REVIEW

Based on our audit, we found (1) inaccurate and incomplete data in SSASy, (2) missing
JOFOC documentation, (3) missing JOFOC requirement in SSA’s AIMS policy, (4) lack
of efforts to obtain unlimited rights to software, and (5) different policies regarding filing
Confidential Financial Disclosure Reports, (Office of Government Ethics [OGE]
Form 450).

INACCURATE AND INCOMPLETE DATA IN SSA’S STREAMLINED ACQUISITION
SYSTEM
      10
SSASy is used to create, route and process PRs electronically. It also validates
accounting and project information and interfaces with the Social Security Online



9
 SSA’s Administrative Instructions Manual System (AIMS) Materiel Resources Manual (MRM) § 06.04.06
defines ratification as the act of approving an unauthorized commitment by an official who has the
authority to do so. See Other Matters for details.
10
     See footnote 7 on p. 3.
Page 5 - The Commissioner


Accounting and Reporting System (SSOARS). 11 Therefore, it is important that data
contained in SSASy is accurate and complete.

Information entered into SSASy is also entered into the FPDS-NG database. FPDS-
NG provides guidance indicating that agencies should not report “Imprest fund
transactions, SF 44 purchases, training authorizations, and micro-purchases
(purchases valued at $2,500 or less) obtained through the use of the Government
                12
purchase card.” We noted that SSA personnel were inputting MPT information into
FPDS-NG that was not necessary according to FPDS-NG guidance.

We determined that the sole source data extract from SSASy provided by SSA for this
audit contained inaccuracies. Based on our audit, the sole source information in
SSASy is not always complete, accurate, or consistent due to SSA’s lack of consistent
data input requirements for SSASy users. Specifically, we have the following concerns:

Incomplete

•     SSA policy for regional contracting staff did not require keeping supporting
      documentation, for example, Statements of Work and JOFOCs, for awards in
      SSASy. However, Headquarters OAG staff was required to keep supporting
      documentation for awards in SSASy. OAG indicated it revised the policy for
      regional contracting staff by requiring them to maintain the supporting
                                 13
      documentation in SSASy. We support this change. Keeping files electronically in
      SSASy ensures documents are retained, whereas in the event of a natural disaster,
      such as fire or flood, hard-copy documents can be damaged or destroyed. For
      example, documents were damaged and destroyed by a flood in the Gwynn Oak
      Building, during July 2004, where OAG was located at the time.

Inaccurate

•     OAG provided a data extract that combined data from SSASy and FPDS-NG which
      included some awards that were not sole source acquisitions. For example, for two
      competitive awards, the contracting officer (CO) mistakenly marked the award as
      sole source when putting information into FPDS-NG.




11
  In October 2003, SSOARS was implemented as the SSA system-of-record for the Agency's financial
accounting function.
12
     FPDS-NG User’s Manual, Section 2.1.2 on p. 3.
13
   OAG informed us that starting October 1, 2007, regional contracting staff are required to keep
supporting documentation in SSASy. Per the Social Security Acquisition Handbook Subpart H2304.802
(f)(1), “[t]he electronic file in SSASy is the official contract file, effective for all contracts awarded by OAG
after February 27, 2004 and for all contracts awarded by Regional COs on or after October 1, 2007.”
Page 6 - The Commissioner


Inconsistent

•     OAG implemented the use of paperless PRs through SSASy for all PRs over
              14                                                               15
      $2,500. Purchases under $2,500 were to be treated as micro-purchases.
      However, if the award originated at OAG, the award had to be put into SSASy,
      regardless of dollar amount.

•     Regional contracting staff input only basic information into SSASy and FPDS-NG for
      acquisitions over the MPT. However, OAG and regional staff were not prohibited
      from inputting information regarding acquisitions under the MPT.

Impact on the Federal Procurement Data System – Next Generation

FPDS-NG contains data that the Federal Government uses to create recurring and
special reports to the President, Congress, Government Accountability Office (GAO),
Federal executive agencies, and the general public. Therefore, it is important that data
                                                 16
contained in FPDS-NG is accurate and complete.

MISSING JUSTIFICATION FOR OTHER THAN FULL AND OPEN COMPETITION
DOCUMENTATION

The FAR 17 and SSA’s policies and procedures 18 provide guidance regarding required
documentation for sole source acquisitions. During the period of our audit, the
                                      19
Simplified Acquisition Threshold (SAT) was $100,000. Awards over the SAT of
$100,000 required a formal JOFOC. Awards under the SAT did not require a formal
JOFOC but may include other documentation (such as the sole source justification).




14
     See footnote 12 on p. 5.
15
  48 C.F.R. § 2.101 that was in effect at the time of our audit, states “Micro-purchase means an
acquisition of supplies or services using simplified acquisition procedures, the aggregate amount of which
does not exceed the micro-purchase threshold.” The micro-purchase threshold during our audit period
was $2,500, except for specified limited exceptions stated in the FAR.
16
  SSA formed the FPDS-NG Workgroup in March 2007. The objective of the workgroup is to improve
and maintain the quality of data entered into FPDS-NG.
17
  48 C.F.R. § 6.300, et seq., provides policies and procedures for contracting without providing for full
and open competition, including justifications and content.
18
  AIMS MRM § 06.06.07 A.2., that was in effect at the time of our audit, indicates that if a project officer
determines that there are no other qualified sources, s/he must “…write a justification explaining why full
and open competition is not feasible.” The AIMS section numbers have subsequently been amended and
now provide for direct references to the justification requirements set forth in the FAR.
19
   48 C.F.R. § 2.101 defines “Simplified acquisition threshold” as $100,000, except under specified limited
circumstances.
Page 7 - The Commissioner


Of the 75 items we reviewed, 59 items did not require a formal JOFOC. Twenty-two
items were under the MPT and did not require any documentation. Thirty-seven items
required documentation to support the sole source award. For all 37 awards, we were
able to obtain documentation justifying the sole source.

A formal JOFOC was required only for the 16 awards that were over the SAT of
$100,000. Based on our audit, 14 of the 16 awards had formal JOFOCs completed in
accordance with FAR. A formal JOFOC was not completed for 2 of the 16 awards. For
one award OAG could not determine why a JOFOC was not completed. Both the
contract specialist and the CO are no longer with SSA. For the second award, the CO
stated that a formal JOFOC was not completed due to the emergency nature of the
acquisition. Although we do not question that the emergency occurred, this award was
made 1 month after the emergency for over $325,000. Therefore, a formal JOFOC
should have been completed for this award.

MISSING JOFOC REQUIREMENT IN SSA’s AIMS POLICY
         20
AIMS did not include the requirement that JOFOCs include a listing of sources (if any)
that expressed in writing an interest in the procurement/acquisition, as mandated by
Federal law21 and the underlying regulation. 22

We reported this issue to OAG management, who informed us that AIMS MRM 06.06
was in the process of being updated. That update was effective on October 29, 2007.
We concur with their action and have no recommendation.

LACK OF EFFORTS TO OBTAIN UNLIMITED RIGHTS TO SOFTWARE

In our sample, we identified four awards in which the sole source justification was that
only one responsible source would satisfy the Agency’s requirement due to SSA’s
dependence on the contractor’s proprietary data 23 (i.e., software). For three of the
awards, SSA did not attempt to obtain rights to the software. For one award, SSA did
attempt to obtain rights to software data. However, SSA did not identify the efforts, in
                                               24
JOFOCs, that it took to obtain unlimited rights to the software in accordance with
AIMS, MRM 06.06, Attachment B which states:


20
     AIMS MRM § 06.06.09 Attachment B, September 22, 2003.
21
     41 U.S.C. § 253(f)(3)(E).
22
     48 C.F.R. § 6.303-2(a)(10).
23
  48 C.F.R. § 52.227-14(a) defines “data” as “…recorded information, regardless of form or the media on
which it may be recorded. The term includes technical data and computer software” (i.e., computer
programs, computer data bases, and documentation thereof).
24
  48 C.F.R. § 27.401 defines “Unlimited rights” as “…the rights of the Government to use, disclose,
reproduce, prepare derivative works, distribute copies to the public, and perform publicly and display
publicly, in any manner and for any purpose, and to have or permit others to do so.”
Page 8 - The Commissioner


           If you cite 41 U.S.C. 253(c)(1), Only One Responsible Source...based
           on the use of proprietary data, describe the data, together with an
           indication as to how you determined it proprietary. If proprietary,
           indicate efforts that you will undertake to obtain unlimited rights.

Also, the GAO recently issued a legal decision (See Appendix C for details) to the
Department of State in which it tries to address a common issue of how captive the
Government is to one software vendor because of proprietary rights. GAO
recommended that the Department of State conduct a documented cost/benefit
analysis reflecting the costs associated with obtaining competition, either through
purchasing additional rights to the proprietary software or some other means, and the
anticipated benefits. At a minimum, SSA should conduct a documented cost benefit
analysis for seeking competition, including efforts made to obtain unlimited rights to
proprietary software, in accordance with the recent GAO decision.

DIFFERENT POLICIES FOR FILING CONFIDENTIAL FINANCIAL DISCLOSURE
REPORT

Public and confidential financial disclosure serves to prevent conflicts-of-interest and to
identify potential conflicts, by providing for a systematic review of the financial interests
of both current and prospective officers and employees. 25 These reports assist
agencies in administering their ethics programs and providing counseling to
             26
employees.

The Agency chooses which employees are required to file the confidential financial
disclosure report (OGE Form 450). Employees are required to file an OGE Form 450 if
the Agency concludes that the duties and responsibilities of the employee's position
require that employee to participate personally and substantially in making a
Government action, such as contracting or procurement. 27

The Office of the General Counsel maintains a list, updated as needed, of the Deputy
Ethics Counselors (DEC). The DECs identify incumbent employees required to file an
OGE Form 450. We obtained lists of employees required to file an OGE Form 450
from contracting staff in the regional offices for the FYs under review.

We reviewed the OGE Form 450 for the contracting staff associated with the 75 awards
in our sample. We had a total of 30 contracting staff associated with our sample, of
which 24 were required to complete the OGE Form 450. Our review of OGE Form 450
completed by OAG and regional contracting employees did not disclose any

25
     5 C.F.R. § 2634.104(b).
26
     Id.
27
  The Ethics in Government Act of 1978, as amended, Pub. L. No. 95-521, 5 U.S.C. App. 4, provided
authority to the Office of Government Ethics, as the supervising ethics office for the executive branch of
the Federal Government, to require that appropriate executive branch employees file financial disclosure
reports.
Page 9 - The Commissioner


deficiencies for these employees. All 19 OAG Headquarters staff and 5 of the
11 regional contracting staff in our sample were required to complete the OGE Form
450. The remaining six regional contracting staff was not required to file an OGE Form
450. In the regions, COs were required to complete an OGE Form 450. Other
contracting staff, such as contracting specialists, were not required to complete OGE
Form 450.

Since the contracting staff in OAG at Headquarters and contracting staff in regional
offices perform the same functions, contracting staff in regional offices should be held
to the same requirements as Headquarters staff. This would assist SSA in preventing
conflicts-of-interest and identifying potential conflicts, in accordance with 5 C.F.R.
2634.104(b).

CONCLUSION AND RECOMMENDATIONS
Based on the results of our review, we concluded that SSA needs to take steps to fully
comply with documentation requirements contained in Federal law, regulations and its
own policies. Specifically, we recommend SSA:

   1. Ensure the data entered into the SSASy and FPDS-NG databases is complete,
      accurate and consistent.

   2. Remind staff a formal JOFOC must be completed for all awards that are over the
      simplified acquisition threshold in accordance with Federal law, regulations and
      SSA policy.

   3. For non-commercial sole source awards where the basis for the justification is
      the fact that the software needed by the Agency is proprietary to a vendor,
      remind staff to conduct a documented cost/benefit analysis reflecting the costs
      associated with obtaining competition, either through purchasing additional rights
      to the proprietary software or some other means, and the anticipated benefits, as
      recommended in the GAO decision.

   4. Require regional staff to comply with the same requirements as Headquarters
      contracting staff for completing the OGE Form 450 or document why the
      requirements should be different.

AGENCY COMMENTS AND OIG RESPONSE

SSA agreed with our recommendations. The Agency’s comments are included in
Appendix D.
Page 10 - The Commissioner


OTHER MATTERS
SSA should implement the following best practice to strengthen its sole source
acquisition process.

EXERCISE OF OPTION YEARS

Each year SSA should re-evaluate contract requirements before issuing sole source
contracts for follow-on awards. Federal regulation requires that each justification shall
contain sufficient facts and rationale to justify the “…use of other than full and open
competition…” for follow-on acquisitions. 28 “As a minimum, each justification shall
include” for specified follow-on acquisitions “…an estimate of the cost to the
Government that would be duplicated and how the estimate was derived.” 29 The
justification shall also include “…a statement of the actions, if any, the agency may take
to remove or overcome any barriers to competition before any subsequent acquisition
for the supplies or services required.” 30

House Resolution 1362, Accountability in Contracting Act, has specific language on
certain sole source contracts. If/when it is passed, it shall require that for
noncompetitive contracts greater than $1,000,000 entered into by an executive agency,
the contract period shall be restricted to the minimum necessary (1) to meet the urgent
and compelling requirements of the work to be performed; and (2) to enter into another
contract for the required goods or services through competitive procedures. It also
requires, “…the contract period to not exceed 1 year, unless the head of the executive
agency concerned determines that the Government would be seriously injured by the
                                    31
limitation on the contract period.”

In addition, legislation has recently been passed by the Senate (S. 680, Accountability
in Government Contracting Act of 2007 § 116) that places limits on the length of certain
contracts awarded using other than full and open competition.

For informational purposes, we are providing the following details regarding
ratifications.




28
     48 C.F.R. § 6.303-2(a)(9)(ii).
29
     Id.
30
     48 C.F.R. § 6.303-2(a)(11).
31
   Accountability in Contracting Act (ACA), H.R. 1362 § 101(a)-(c). The ACA was introduced in the House
of Representatives on March 6, 2007, and passed by the House and referred to the Senate on
March 15, 2007.
Page 11 - The Commissioner


RATIFICATION OF UNAUTHORIZED COMMITMENTS

SSA’s AIMS MRM 06.04.03 indicates that an employee creates an unauthorized
commitment if s/he lacks the authority to enter into the agreement on the Agency's
behalf. AIMS MRM 06.04.07 allows the Agency to ratify an unauthorized commitment
under limited instances, such as when the resulting contract would otherwise have been
proper if made by an appropriate CO. AIMS MRM 06.04.06 defines ratification as the
act of approving an unauthorized commitment by an official who has the authority to do
so.

Our review disclosed 6 of the 75 sole source awards in our sample were unauthorized
commitments that were subsequently ratified by SSA. Four of the six awards were part
of the same ratification. For these four awards, an employee signed a task order for
maintenance. However the CO’s delegation did not include maintenance so the awards
were ratified. In another award, the employee in good faith made a purchase he was
not authorized to make. The purchase was ratified and additionally, the Associate
Commissioner issued guidance to ensure all employees are aware that only authorized
personnel are allowed to make purchases. In the sixth award, the employee received a
quote that was under the MPT. The employee was not informed of a processing fee
which was included in the actual invoice. As a result, the actual invoice was over the
MPT, and this award was ratified.




                                              Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – GAO Decision
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                                  Appendix A

Acronyms
ACA            Accountability in Contracting Act
AIMS           Administrative Instructions Manual System
C.F.R.         Code of Federal Regulations
CO             Contracting Officer
DEC            Deputy Ethics Counselor
FAR            Federal Acquisition Regulations
FPDS-NG        Federal Procurement Data System – Next Generation
FY             Fiscal Year
GAO            Government Accountability Office
GSA            General Services Administration
GWACs          Government Wide Acquisition Contracts
IDIQ           Indefinite Delivery Indefinite Quantity
JOFOC          Justification for Other than Full and Open Competition
JWOD           Javits-Wagner-O'Day
MRM            Materiel Resources Manual
MPT            Micro-Purchase Threshold
PR             Purchase Requests
OAG            Office of Acquisition and Grants
OGE Form 450   Confidential Financial Disclosure Report
SAT            Simplified Acquisition Threshold
SSA            Social Security Administration
SSASy          Social Security Administration Streamlined Acquisition System
SSOARS         Social Security Online Accounting and Reporting System
U.S.C.         United States Code
                                                                      Appendix B

Scope and Methodology
We reviewed the sole source acquisition documentation for Fiscal Years (FY) 2003
through 2005 to determine whether the Social Security Administration (SSA) Office of
Acquisition and Grants (OAG) properly justified its sole source acquisitions.

To accomplish our objective, we:

•   Reviewed pertinent sections of SSA’s policies and procedures as well as relevant
    Federal laws and regulations to determine the requirements relating to sole source
    acquisitions. Specifically we reviewed the United States Code, Code of Federal
    Regulations, Federal Acquisition Regulation, and the Administrative Instructions
    Manual System criteria specific to sole source acquisitions.
•   Interviewed SSA’s OAG staff to gain an understanding of the sole source acquisition
    process.
•   Obtained and reviewed the awards and/or modifications for the 75 sample items.
•   Interviewed staff in the OAG and in various regional offices on individual awards.
•   Requested and received from OAG the list of sole source acquisitions made during
    FYs 2003 through 2005. We removed all items which had zero dollars obligated.
    There were 13 awards in the population of 1,290 awards provided by OAG that had
    total dollars obligated of zero. Therefore, our population consisted of 1,277 awards
    (1290 less 13) totaling $75,397,225.
•   We selected for review:
          o the 3 highest dollar awards by different vendor,
          o the 30 lowest dollar awards,
          o 30 randomly selected awards from the remaining population, and
          o subsequently, we also selected 12 additional awards required to have
             additional documentation justifying the sole source. For each award we
             selected, we reviewed the documents supporting the sole source
             acquisition.
•   Requested and reviewed OGE Form 450, Confidential Financial Disclosure Report
    for OAG and Regional staff.

We determined that the data extract, exclusive to sole source acquisitions, provided by
SSA for this audit, contained inaccuracies. We base this determination on our
interviews with staff in the OAG and in various regional offices and our review of the
documents supporting the sole source acquisition for the 75 sample items. We did not
determine the completeness of the data extract provided by SSA.



                                           B-1
We conducted our fieldwork in Baltimore, Maryland between December 2006 and
July 2007. The entities audited were OAG, and the New York, Philadelphia, Atlanta,
Chicago, Kansas City and San Francisco Regional Offices contracting units. Our audit
was conducted in accordance with generally accepted government auditing standards.




                                         B-2
                                                                         Appendix C

GAO Decision
In our sample, we identified four awards in which the sole source justification was due
to SSA’s dependence on the contractor’s proprietary data (i.e., software).

The Administrative Instructions Manual System, Materiel Resources Manual 06.06,
Attachment B - Content Items for Justification, B states:

          If you cite 41 U.S.C. 253(c)(1), Only One Responsible Source...based
          on the use of proprietary data, describe the data, together with an
          indication as to how you determined it proprietary. If proprietary,
          indicate efforts that you will undertake to obtain unlimited rights.

Also, the Government Accountability Office (GAO) recently issued a legal decision 32 in
which it stated:

          …the agency [Department of State] has produced no record of any
          steps that it has taken to end its reliance on the services of the
          incumbent to maintain the existing software systems; in fact, this latest
          proposed sole-source award has a potential term of 5 years. It is
          possible, for example, that the agency could purchase additional rights
          to the proprietary software in order to promote competition.…

Therefore, GAO recommended:

          ...that the agency [Department of State] conduct a documented
          cost/benefit analysis reflecting the costs associated with obtaining
          competition, either through purchasing additional rights to the
          proprietary software or some other means, and the anticipated benefits.
          If the cost/benefit analysis reveals a practicable means to obtain
          competition, we recommend that the agency proceed with a
          competitive procurement. 33

In its decision, GAO is trying to address a common issue of how captive the
Government is to one software vendor because of proprietary rights. Therefore, it is
apparent from SSA’s policy and the GAO decision that SSA should document any
efforts made to obtain unlimited rights including but not limited to a cost/benefit
analysis.


32
     GAO, eFedBudget Corporation, B-298627, November 15, 2006, p. 8.
33
     GAO, supra at p. 8-9.
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      January 29, 2008                                                       Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      David Foster /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Process for Awarding Sole Source
           Acquisitions” (A-15-07-17061)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments regarding the draft report
           and response to the recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.


           Attachment




                                                         D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S DRAFT REPORT,
“PROCESS FOR AWARDING SOLE SOURCE ACQUISITIONS” (A-15-07-17061)

Thank you for the opportunity to review and provide comments on this draft report. This is a
contracting topic that has received a great deal of attention over the last several years from
members of Congress, as well as the Office of Management and Budget. As responsible
stewards of the taxpayer’s money, we are committed to ensuring that all sole source acquisitions
are properly and adequately justified.

Recommendation 1

Ensure the data entered into the Social Security Administration Streamlined Acquisition System
(SSASy) and Federal Procurement Data System – Next Generation (FPDS-NG) databases is
complete, accurate and consistent.

Comment

We agree. Since December 2006, procurement analysts in the Division of Policy and Purchase
Card Administration in the Office of Budget, Finance and Management have reviewed
FPDS-NG records as part of their ongoing Acquisition Management Reviews. Additionally, in
December 2007, we updated our Social Security Acquisition Handbook (SSAH) to: 1) remind
contracting officers (COs) of the importance of accurate and complete FPDS-NG data and of the
need to review FPDS-NG for accuracy and completeness before issuing any award; 2) clarify that
doing so requires more than getting the award to pass edit checks; and 3) remind those reviewing
contract awards (e.g.; team leaders, managers, etc.) that they too must review the FPDS-NG
record for accuracy and completeness before approving an award. We also added language to the
SSAH to require COs to make a statement in the file documentation for modifications, including
option renewals. As for SSASy, we will issue a reminder to the COs to verify the information
they input into SSASy in our upcoming Acquisition Update (a monthly newsletter that is sent to
all COs).

It should also be noted that COs do not have the ability to change data that defaults into an
FPDS-NG record from other systems. Examples of this are data regarding business size that
defaults from the Central Contractor Registration and data that defaults into the FPDS-NG record
from the General Services Administration (GSA) when an order is issued against a GSA
schedule contract.

Recommendation 2

Remind staff a formal Justification for Other than Full and Open Competition must be completed
for all awards that are over the simplified acquisition threshold in accordance with Federal law,
regulations and Social Security Administration policy.




                                               D-2
Comment

We agree. We will issue a reminder in our upcoming Acquisition Update.
Recommendation 3

For non-commercial sole source awards where the basis for the justification is the fact that the
software needed by the Agency is proprietary to a vendor, remind staff to conduct a documented
cost/benefit analysis reflecting the costs associated with obtaining competition, either through
purchasing additional rights to the proprietary software or some other means, and the anticipated
benefits, as recommended in the Government Accountability Office decision.

Comment

We agree. Since the responsibility for conducting such an analysis will be the responsibility of
the requiring component, we will prepare a reminder and send it to all project officers and COs.
Additionally, we will post the reminder to our Intranet page for project officers and update
Administrative Instructions Manual System MRM 06.06, Competition in Acquisitions, to reflect
this requirement.

Recommendation 4

Require Regional staff to comply with the same requirements as Headquarters contracting staff
for completing the Confidential Financial Disclosure Report (OGE Form 450) or document why
the requirements should be different.

Comment

We agree. We will determine whether Regional staff needs to complete the OGE Form 450 by
the end of June 2008. It should be noted that currently individuals who are assigned certain
designated positions are required to file OGE Form 450, which has been a management decision.
If, through our analysis, we determine that the requirement needs to continue to be different for
Regional staff than for Headquarters staff, we will document our decision.




                                               D-3
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Vicki Vetter, Director, Financial Audit Division, (410) 966-9081

   Mark Meehan, Acting Audit Manager, Financial Audit Division, (410) 966-6741

Acknowledgments

In addition to those named above:

   Jackie Patel, Auditor-in-Charge, Financial Audit Division, (410) 966-9382

   Donna Parris, Auditor, Financial Audit Division, (410) 965-3516

   Brennan Kraje, Statistician

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s
Public Affairs Specialist at (410) 965-3218. Refer to Common Identification
Number A-15-07-17061.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
